<html>
<title> - THE ADMINISTRATION'S RESPONSE TO FINDINGS OF UNETHICAL AND CRIMINAL CONDUCT AT THE DEPARTMENT OF THE INTERIOR</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
 THE ADMINISTRATION'S RESPONSE TO FINDINGS OF UNETHICAL AND CRIMINAL 
               CONDUCT AT THE DEPARTMENT OF THE INTERIOR

=======================================================================

                           OVERSIGHT HEARING

                               before the

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, June 23, 2016

                               __________

                           Serial No. 114-47

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
       
       
       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
          
          
                             ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 20-546 PDF               WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
                       
          
          
          
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Wm. Lacy Clay, MO
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                  Sarah Lim, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                      LOUIE GOHMERT, TX, Chairman
             DEBBIE DINGELL, MI, Ranking Democratic Member

Doug Lamborn, CO                     Jared Huffman, CA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Bruce Westerman, AR                  Jared Polis, CO
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Vacancy
Alexander X. Mooney, WV              Raul M. Grijalva, AZ, ex officio
Darin LaHood, IL
Rob Bishop, UT, ex officio
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Day, Thursday, June 23, 2016.....................     1

Statement of Members:
    Dingell, Hon. Debbie, a Representative in Congress from the 
      State of Michigan, Prepared statement of...................     4
    Gohmert, Hon. Louie, a Representative in Congress from the 
      State of Texas.............................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Guertin, Steve, Deputy Director of Policy, U.S. Fish and 
      Wildlife Service, U.S. Department of the Interior..........    12
        Prepared statement of....................................    13
        Questions submitted for the record.......................    14
    Kendall, Mary, Deputy Inspector General, Office of the 
      Inspector General, U.S. Department of the Interior.........     6
        Prepared statement of....................................     8
        Questions submitted for the record.......................     9

Additional Materials Submitted for the Record:
    Hice, Hon. Jody, June 16, 2016 Letter to President Obama.....    17
    List of documents submitted for the record retained in the 
      Committee's official files.................................    30
                                     



   OVERSIGHT HEARING ON THE ADMINISTRATION'S RESPONSE TO FINDINGS OF 
    UNETHICAL AND CRIMINAL CONDUCT AT THE DEPARTMENT OF THE INTERIOR

                              ----------                              


                        Thursday, June 23, 2016

                     U.S. House of Representatives

              Subcommittee on Oversight and Investigations

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:30 a.m., in 
room 1324, Longworth House Office Building, Hon. Louie Gohmert, 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Gohmert, Westerman, Hice, Mooney, 
LaHood, and Bishop (ex officio).
    Mr. Gohmert. The Subcommittee on Oversight and 
Investigations will come to order.
    The subcommittee is meeting today to hear testimony on the 
Administration's response to findings of unethical and criminal 
conduct at the Department of the Interior.
    Under Committee Rule 4(f), any oral opening statements at 
the hearings are limited to the Chairman and the Ranking 
Minority Member. Therefore, I ask unanimous consent that all 
other Members' opening statements made be made part of the 
hearing record if they are submitted to the Subcommittee Clerk 
by 5:00 p.m. today.
    Hearing no objection, so ordered.
    We were notified that Ranking Member Dingell would not be 
able to be here. You may be aware we had an interesting evening 
and finished votes, I think, sometime after 3:00 a.m.
    I will also say that it is a pleasure to work with 
Congresswoman Debbie Dingell. She is, I have found, one of the 
more honorable, decent people of integrity like her husband, 
and it is a pleasure to work with her. I think a great deal of 
her and I am proud to consider her a friend.
    Now, I recognize myself for 5 minutes for an opening 
statement.

   STATEMENT OF THE HON. LOUIE GOHMERT, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Gohmert. A month ago this committee examined unethical 
conduct on the part of officials at the Department of the 
Interior, including Jonathan Jarvis, the Director of the 
National Park Service, who openly lied to the Secretary and 
attempted to mislead the OIG.
    I mentioned then that the Department's failure to hold its 
employees accountable facilitates unethical and illegal 
behavior. The Department witness repeatedly testified that 
Interior has ``a culture of compliance.'' Despite this, 
Secretary Jewell recently issued a warning to 70,000 agency 
employees to ``comply with the ethical responsibilities 
expected of all Federal employees.''
    Since that hearing, more reports of unethical and illegal 
acts have been released.
    The OIG reported that former BLM Director Bob Abbey 
personally arranged to sell Bureau of Land Management land in 
Nevada, so that his company could benefit to the tune of 
$528,000. The Department of Justice chose not to prosecute Mr. 
Abbey, despite OIG presenting the case to two separate U.S. 
Attorneys.
    OIG also investigated Stephen Barton, Chief of 
Administration and Information Management for the U.S. Fish and 
Wildlife Service. Mr. Barton failed to disclose that he was 
earning income, totaling nearly $400,000, from serving as 
treasurer of an association that receives grants from and is 
audited by the Fish and Wildlife Service.
    While lying about his employment conflict of interest, OIG 
also found that Mr. Barton lived in Idaho while being paid a 
substantially higher amount by claiming Washington, DC as his 
residence. To top it off, Mr. Barton billed taxpayers over 
$96,000 for travel between the two locations.
    DOJ declined to prosecute the case.
    OIG also revealed that a U.S. Geological Survey lab in 
Colorado consistently manipulated lab results that are used by 
the Energy Resources Program and countless other entities from 
2008 to 2014 and, possibly, as far back as 1996. The full 
impact and scope of this falsified data is unknown, but it is 
sure to be far reaching and serious.
    At our last hearing, it was disclosed that OIG had 
confirmed a long-term pattern of sexual harassment at Grand 
Canyon National Park, where over 80 people were victimized. 
Leadership who allowed this practice to continue for years were 
not disciplined, and DOJ again refused to prosecute. I say 
``were not disciplined'' because what was done was actually a 
favor to the culprit rather than a punishment.
    We now have learned that the problem extends to other 
locations in our national park system, including the Canaveral 
National Seashore, where the manager sexually harassed 
employees over a period of 5 years. To make matters even worse, 
the OIG has made us aware that additional, unrelated cases of 
sexual harassment are currently under investigation.
    Perhaps these serious issues should not be a surprise when 
such matters have been referred to a National Park Service 
Director who has shown a clear disinterest in following the 
ethics guidelines himself.
    And, yesterday, we were informed that Fay Iudicello, an SES 
employee in the Secretary's office, egregiously violated hiring 
regulations on multiple occasions in order to secure a job for 
her family member. Not only that, but in the process, she also 
instructed her subordinates to eliminate qualified veterans 
from the pool of candidates because she did not want to have a 
disabled veteran on staff. Her discriminatory and illegal 
actions resulted not in her dismissal but, instead, in the 
employment of her relative and the rejection of more qualified 
veteran candidates.
    Failure of accountability extends beyond the Department of 
the Interior. Of 29 criminal cases that the OIG referred to the 
Department of Justice over the course of 6 months, 17 were 
declined for prosecution. This number is troubling, especially 
when DOJ participates alongside the OIG in some of these 
investigations it ultimately declines to prosecute.
    While Justice's involvement in OIG investigations can be 
beneficial, it can also slow the pace of an investigation, and 
it can limit what OIG is able to report to Interior for 
accountability purposes.
    We invited DOJ to testify today to help us understand how 
it works with the OIG, and how it decides whether to prosecute 
cases involving clear criminal violations. Rather than send a 
witness, DOJ instead put off the committee for days, questioned 
committee staff as to whether our committee has the right to 
request their presence at the witness table, and ultimately 
suggested that we read the ``Principles of Federal 
Prosecution'' online instead.
    So, let me be clear. It is completely appropriate for this 
committee to request the presence of the Department of Justice 
at the witness table. We have a valid interest in its 
involvement in these OIG investigations and in learning from 
DOJ itself about its processes for handling OIG referrals.
    The DOJ's refusal to be here today casts their record of 
non-prosecution of Administration misconduct into a light of 
accommodating such misconduct.

    I thank the witnesses for coming here today and I look 
forward to their testimony.

    [The prepared statement of Mr. Gohmert follows:]
Prepared Statement of the Hon. Louie Gohmert, Chairman, Subcommittee on 
                      Oversight and Investigations
    A month ago this committee examined unethical conduct on the part 
of Department of the Interior officials, including the Director of the 
National Park Service, Jonathan Jarvis, who openly lied to the 
Secretary and attempted to mislead the OIG.
    I mentioned then that the Department's failure to hold its 
employees accountable facilitates unethical and illegal behavior. The 
Department witness repeatedly testified that Interior has ``a culture 
of compliance.'' Despite this, Secretary Jewell recently issued a 
warning to 70,000 agency employees to ``comply with the ethical 
responsibilities expected of all Federal employees.''
    Since that hearing, more reports of unethical and illegal acts have 
been released.
    The OIG reported that former BLM Director Bob Abbey personally 
arranged a sale of BLM land in Nevada so that his company could benefit 
to the tune of $528,000. The Department of Justice chose not to 
prosecute Mr. Abbey, despite OIG presenting the case to two separate 
U.S. Attorneys.
    OIG also investigated Stephen Barton, Chief of Administration and 
Information Management for the U.S. Fish and Wildlife Service. OIG 
found that Mr. Barton failed to disclose that he was earning income--
totaling nearly $400,000--while he served as treasurer of an 
association that receives grants from and is audited by the Fish and 
Wild Service. While lying about his employment conflict of interest, 
OIG found that Mr. Barton also lived in Idaho while being paid a 
substantially higher amount by claiming he resided in Washington, D.C. 
To top it off, Mr. Barton billed taxpayers over $96,000 for travel 
between the two locations.
    DOJ declined to prosecute this case.
    OIG also revealed that a U.S. Geological Survey lab in Colorado 
consistently manipulated lab results that are used by the Energy 
Resources Program and countless other entities from at least 2008 to 
2014, and possibly as far back as 1996. The full impact and scope of 
this falsified data is unknown, but it is sure to be far reaching and 
serious.
    At our last hearing, we mentioned that OIG had confirmed a long-
term pattern of sexual harassment at Grand Canyon National Park, where 
over 80 people were victimized. Leadership who allowed this practice to 
continue for years were not disciplined and DOJ again refused to 
prosecute.
    We now have learned that the problem extends to other locations in 
our National Park System, including the Canaveral National Seashore 
where the manager sexually harassed employees over a period of 5 years. 
To make matters even worse, the OIG has made us aware that additional, 
unrelated cases of sexual harassment are currently under investigation.
    Perhaps these serious issues should not be a surprise when such 
matters have been referred to a National Park Service Director who is 
incapable of following ethics guidelines himself.
    And yesterday, we were informed that Fay Iudicello, an SES employee 
in the Secretary's office, egregiously violated hiring regulations on 
multiple occasions in order to secure a job for her family member. And 
not only that, but in the process, she also instructed her subordinates 
to eliminate qualified veterans from the pool of candidates because she 
did not want to have a disabled veteran on staff. Her discriminatory 
and illegal actions resulted not in her dismissal, but instead in the 
employment of her relative, and the rejection of more qualified veteran 
candidates.
    Failure of accountability extends beyond the Department of the 
Interior. Of 29 criminal cases that the OIG referred to the Department 
of Justice over the course of 6 months, 17 were declined for 
prosecution. This number is troubling, especially when DOJ participates 
alongside OIG in some of these investigations that it ultimately 
declines to prosecute.
    While Justice's involvement in OIG investigations can be 
beneficial, it can also slow the pace of an investigation, and it can 
limit what OIG is able to report to Interior for accountability 
purposes.
    We invited DOJ to testify today to help us understand how it works 
with the OIG, and how it decides whether to prosecute cases involving 
clear criminal violations. Rather than send a witness, DOJ instead put 
off the committee for days, questioned committee staff as to whether 
this committee has the right to request their presence at the witness 
table, and ultimately suggested that we read the ``Principles of 
Federal Prosecution'' online instead.
    Let me make this clear--it is completely appropriate for this 
committee to request the presence of the Department of Justice at the 
witness table. We have a valid interest in its involvement in these OIG 
investigations, and in learning, from DOJ itself, about its processes 
for handling OIG referrals. The Department of Justice's refusal to be 
here today makes me wonder what their motivations for failing to 
prosecute these cases really are.
    I thank our witnesses for coming here today and I look forward to 
your testimony.

                                 ______
                                 

    Mr. Gohmert. The Chairman would normally recognize Mrs. 
Dingell; but, like I said, due to the unusual nature of the 
evening and the hardships it has placed on travel plans today, 
my friend, the Ranking Member, Mrs. Dingell, is not able to be 
here.
    I would ask unanimous consent that any opening statement 
she has would be made a part of the record.

    Hearing no objection, it is so ordered.

    [The prepared statement of Mrs. Dingell follows:]
    Prepared Statement of the Hon. Debbie Dingell, Ranking Member, 
              Subcommittee on Oversight and Investigations
    Thank you, Mr. Chairman.
    This is our second hearing in this subcommittee that looks at 
reports from the Department of the Interior's Inspector General. In the 
hearing on unethical conduct last month my colleague, Congressman Clay, 
sat in the Ranking Member chair because I was unable to attend and I am 
grateful for his commitment and effectiveness. He convincingly argued 
that instead of simply attacking the Administration for unethical 
conduct at the Department of the Interior, ``We need to hear about the 
changes the Department is making to ensure the . . . cases before us 
aren't repeated.'' Thank you for responding to that request, Mr. 
Chairman.
    I am deeply concerned about the recent findings by the Inspector 
General. Undoubtedly, the individuals we will discuss today acted 
unethically. In the case of the inorganics lab at the U.S. Geological 
Survey, the issue was so bad that it spanned three administrations with 
the most recent incident alone spanning two. This is unacceptable.
    Ensuring ethical conduct in the workplace is particularly critical 
for those who serve the public. The public must have faith that 
agencies serve their needs and tax dollars do not go to waste. During 
this time of low public trust in government, now more than ever we need 
to confirm that the Department responds to its ethical issues 
adequately.
    Let's be frank. In any organization with over 70,000 employees, 
undoubtedly there will be bad decisions. In order to effectively manage 
those incidents, I believe three questions must be answered.
    First, has the Department taken the necessary steps to learn from 
the incidents? Did they take the time and effort to fully understand 
the problem, including the lessons the IG has to offer?
    Second, did the agency act to prevent these issues from re-
occurring? Only by correcting past mistakes can the Department create a 
stronger and more ethical agency going forward. This administration has 
made multiple changes to try to correct the culture of corruption at 
key parts of the Department of the Interior that existed in the 
previous administration. It's our job to make sure the Department 
responds to the most recent ethical lapses now.
    Third, are the cases at issue today isolated incidents or do they 
point to a more systemic problem? The authoritative voice on this 
question, Mary Kendall, has said that under this Administration there 
is now ``a culture at Interior that, for the most part, is one 
populated by individuals who are committed to the mission and doing the 
right thing.''
    The Office of Inspector General's Semiannual Reports to Congress 
support that statement. From October 2014 to March 2016, 56 employees 
of the Department of the Interior were suspended, reprimanded, and 
removed, transferred, resigned, or retired due to investigations by the 
Office of Inspector General. That's a rate of 0.08 percent for the 
agency as a whole. For comparison, that's less than one-eighth the rate 
of corruption among members of the House of Representatives for that 
same time period.
    I also want to explore a statistic that speaks to a claim that 
seems to underpin this hearing. The Majority states that the DOI IG 
referred 29 cases to Justice, and Justice only took up 17 of those 
cases over a recent 6-month time period. The implication is that the 
DOJ is improperly turning down referrals from the IG.
    If we want to determine whether the Department of Justice in this 
Administration is treating offenders any differently than they should, 
we need a benchmark--some kind of point of comparison. So let's look at 
how the DOJ has responded to serious offenses in the past.
    There is one case in particular that was mentioned in the previous 
hearing and provides a good reference point for what we are talking 
about today. I'm going to quote from the IG report.
    At the former Minerals Management Service under the previous 
administration, nearly one-third of the employees in one of the 
agency's programs were receiving gifts and gratuities from the oil and 
gas industry.
    Employees were ``effectively opting themselves out of the Ethics in 
Government Act, both in practice, and, at one point, even explored 
doing so by policy or regulation.''
    Employees ``manipulated the contracting process from start'' to 
enrich themselves.
    One employee pled guilty to a criminal charge. Two more were 
referred to the Department of Justice. And ``others have escaped 
potential administrative action by departing from Federal service.''
    Employees ``engaged in illegal drug use and illicit sexual 
encounters'' with the very industry they were charged with regulating. 
That includes a supervisor who had sexual relations with subordinates 
and in consort with the oil and gas industry. As the report dryly says, 
``sexual relationships with prohibited sources cannot, by definition, 
be arms-length.''
    ``When confronted by our investigators, none of the employees 
involved displayed remorse.''
    This is a case that was so depraved that it makes the perpetrators 
of today's case studies look like the Dalai Lama. On the surface, it 
seems that if ever there was a case that should have been prosecuted, 
it was this one.
    Still, that's just one case. So I dug a little deeper and went all 
the way back to 2001--the beginning of the previous administration--to 
look at the rate that cases were referred by the Interior IG to the DOJ 
but declined by DOJ. I used the same data source as the majority--
semiannual OIG reports. It turns out that the previous administration's 
Department of Justice declined to prosecute 67.1 percent of the 
referrals from the DOI IG. Under this administration, it was 53.7 
percent. So this administration prosecutes more of the Interior OIG 
cases than the previous administration.
    I think we need to take a good hard look at the cases we have 
before us today and make sure we are continuing to improve all the 
agencies at DOI. But let's also make sure that we are being fair about 
the implications of these individual cases and examining all the 
evidence before we draw larger conclusions. Let's make sure the 
Department of the Interior's record of improvement has continued into 
this year. Let's make sure the Department has learned from its 
mistakes. And let's make sure the Department has the resources and the 
support it needs to guarantee employees continue to seek ethical 
consult going forward.
    I yield back the balance of my time.

                                 ______
                                 

    Mr. Gohmert. I will now introduce our witnesses. Ms. Mary 
Kendall is the Deputy Inspector General for the Office of the 
Inspector General at the U.S. Department of the Interior, and 
has testified here before.
    Ms. Kendall, welcome back. Thank you for being here.
    Then, Mr. Steve Guertin is the Deputy Director of Policy at 
the U.S. Fish and Wildlife Service.
    Mr. Guertin, thank you for being here.
    Let me remind the witnesses that under our Committee Rules, 
oral statements must be limited to 5 minutes, but the entire 
written statement will appear in the hearing record regardless 
of your testimony.
    When you begin, the lights on the witness table will turn 
green. When you have 1 minute remaining the yellow light will 
come on. Your time will have expired when the red light comes 
on, and I will ask you to please conclude your statement.

    The Chair now recognizes Ms. Kendall for 5 minutes.

STATEMENT OF MARY KENDALL, DEPUTY INSPECTOR GENERAL, OFFICE OF 
     THE INSPECTOR GENERAL, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Kendall. Thank you, Mr. Chairman.
    Good morning, members of the committee. Thank you for the 
opportunity to testify today regarding the work of the Office 
of the Inspector General.
    This hearing highlights the importance of bringing into the 
public view the role of the OIG as an independent, objective 
body to investigate matters that ultimately violate the public 
trust.
    I must emphasize the dedication and hard work of OIG staff 
and give credit to those who produce the results that are the 
subject of today's hearing.
    These recent hearings have also reinforced our focus on 
analyzing patterns of misconduct, examples of retaliation or 
intimidation, and systemic failures in management and internal 
oversight of critical processes within the Department, such as 
human resources, and contract and grant management.
    With fewer than 80 investigators, we work with constrained 
resources to address the ever-increasing complaints and 
allegations we receive throughout the year from multiple 
sources. With limited time and resources, we tend to move from 
case to case without considering cross-cutting impacts or 
patterns that our investigations uncover.
    Recently, however, we have begun to look for investigative 
trends that may eliminate more systemic issues within the 
Department and its bureaus. The OIG has established a 
reputation for fair and thorough investigative and audit work. 
While we produce a significant volume of both investigative and 
audit work, in light of our work size we are not always able to 
transmit and make public our work products as quickly as I 
would like.

    Our effort at transparency, something that I believe is 
unparalleled in the OIG community, has its own challenges. In 
preparing public versions of these investigative and audit 
results, we must address grand jury secrecy rules, privacy 
issues, confidential business and proprietary information 
protections, and protection of confidential sources. This 
effort can be quite time consuming, but I believe that the 
benefit of the resulting transparency is well worth the effort.

    By reducing the time we provide to the Department for 
consideration from 90 to no more than 30 days before publishing 
investigative reports or summaries on our Web site, we provide 
all of our stakeholders with clear expectations about the 
public availability of our reports.

    Much of our investigative work includes working with 
Assistant U.S. Attorneys (AUSAs) and other officials in the 
Department of Justice. We have strong working relationships 
with many U.S. Attorney's Offices, which has resulted in the 
prosecution of cases throughout the country.

    A couple of examples of these effective working 
relationships with DOJ are our considerable involvement with 
the Deepwater Horizon Task Force, both criminal and civil, 
which were led by DOJ and resulted in record-setting fines and 
penalties.

    We also had great success in the Guardians Task Force, 
which was led by the U.S. Attorney's Office for the District of 
Montana, to address public corruption involving tribal leaders. 
This model has become a standard for task forces in Indian 
Country.

    We consult with DOJ on all allegations that involve 
potential criminal violations. A considerable number of these 
cases do not get prosecuted for any number of appropriate 
reasons.

    Other times, a matter may be accepted for consideration for 
prosecution, but gets delayed due to higher priority cases or 
other resource limitations. The process of prosecutorial 
consideration is very deliberate, very detailed, and at times, 
completely out of our hands.

    I reiterate my thanks to the subcommittee for holding this 
hearing today, for giving these issues the attention they 
deserve, and for recognizing the need for transparency and 
accountability in this important area.

    This concludes my prepared testimony, and I am happy to 
answer any questions committee may have.

    [The prepared statement of Ms. Kendall follows:]
 Prepared Statement of Mary L. Kendall, Deputy Inspector General, U.S. 
                       Department of the Interior
    Mr. Chairman, Ranking Member, and members of the subcommittee, 
thank you for the opportunity to testify today regarding the work of 
the Office of Inspector General (OIG). This hearing, along with the 
previous hearing before this subcommittee and another recent hearing 
held by the House Committee on Oversight and Government Reform, helps 
to highlight the importance of bringing into the public view the role 
of the OIG as an independent, objective body to investigate matters 
that ultimately violate public trust. I must emphasize the dedication 
and hard work of the OIG staff, and give credit to those who produce 
the results that are the subject of today's hearing.
    These recent hearings have also reinforced our focus on analyzing 
patterns of misconduct, examples of retaliation or intimidation, and 
systemic failures in management and internal oversight of critical 
processes within the Department, such as human resources and contract 
and grant management.
    With fewer than 80 investigators, we work with constrained 
resources to address the ever-increasing complaints and allegations we 
receive throughout the year from multiple sources. We do so, in part, 
by capitalizing on a culture at Interior that, for the most part, is 
populated by individuals who are committed to the mission and doing the 
right thing. In fact, they are quick to report wrongdoing to the OIG. 
Just short of 50 percent of our complaints are generated by DOI 
employees and management. Another 15 percent of our complaints come 
from anonymous sources, many of which include information known only to 
DOI employees, so the total percentage is likely higher.
    With limited time and resources, our tendency has been to move from 
case to case without considering cross-cutting impacts or patterns that 
our investigations uncover. Recently, however, we have begun to look 
for investigative trends that may illuminate more systemic issues 
within the Department and its bureaus.
    The OIG has established a reputation for fair and thorough 
investigative and audit work. We are routinely called upon by the 
Department to conduct independent reviews of suspicious activity or 
allegations of misconduct. Several of the recent cases giving rise to 
congressional and media attention were generated by information 
reported to us by senior Departmental officials. As our reports 
reflect, however, the source of allegations does not influence the way 
in which we conduct our work, or report our investigative or audit 
findings.
    While we produce a significant volume of investigative and audit 
work, in light of our workforce size, we are not always able to 
transmit and make public our work products as quickly as I would like. 
We have implemented several internal processes to improve our 
timeliness without compromising the quality of our work and work 
products. As you know, we have also implemented a policy of making 
public essentially all of our investigative reports whether allegations 
are substantiated or not, as well as some additional audit reports that 
had not been published previously. This effort at transparency--
something that is unparalleled in the OIG community--has its own 
challenges. In preparing public versions of these investigative and 
audit results, we must address grand jury secrecy rules, privacy 
issues, confidential business and proprietary information protections, 
and protection of confidential sources. This effort can be quite time 
consuming, but I believe that the benefit of the resulting transparency 
is well worth the effort.
    As I explained in my testimony for the May 24, 2016 hearing before 
this subcommittee, we have recently streamlined our process for 
publishing investigative reports, reducing the time we provide to the 
Department for review and action from 90 to 30 days, before we provide 
investigative reports to Congress and publish those reports or 
summaries on our Web site. This change provides all of our stakeholders 
with clear expectations about the public availability of our reports. 
Since the improved publishing process was implemented, only one report 
has been delayed to allow the Department of Justice additional time for 
prosecutorial consideration.
    Much of our investigative work includes working with Assistant U.S. 
Attorneys and other officials from the Department of Justice (DOJ). We 
have strong working relationships with many U.S. Attorney's offices, 
which have resulted in the prosecution of cases throughout the country. 
An example of this effective working relationship with DOJ is our 
considerable involvement in the Deepwater Horizon task forces--both 
criminal and civil--which were led by DOJ and resulted in record-
setting fines and penalties. We also had great success in the Guardians 
task force, which was led by the U.S. Attorney's Office for the 
District of Montana, addressing public corruption involving tribal 
leaders. This model has become a standard for task forces in Indian 
Country.
    We consult with DOJ on all allegations that involve potential 
criminal violations. A considerable number of these cases do not get 
prosecuted for any number of appropriate reasons. Other times, a matter 
may be accepted for consideration for prosecution, but gets delayed due 
to higher priority cases or other resource limitations. The process of 
prosecutorial consideration is very deliberate, very detailed, and, at 
times, completely out of our hands.
    OIGs face significant hurdles to get their cases prosecuted. In 
certain areas of the country, we are presenting white collar crimes 
that simply do not meet the guidelines of the particular U.S. 
Attorney's office. We also compete against more notorious crimes, such 
as human trafficking, murder, drug conspiracies, and other violent 
crimes. These are among the reasons why some of our cases that we wish 
would be prosecuted are declined.
    I reiterate my thanks to the subcommittee for holding this hearing, 
for giving these issues the attention they deserve, and for recognizing 
the need for transparency and accountability in this important area.
    This concludes my prepared testimony. I am happy to answer any 
questions that the members of the subcommittee may have.

                                 ______
                                 

  Questions Submitted for the Record by Rep. Gohmert to Mary Kendall, 
Deputy Inspector General, Office of Inspector General, U.S. Department 
                            of the Interior
    Question 1. Please verify whether or not Mr. Abbey and his business 
partner are still doing business with either BLM or the Department of 
the Interior.

    Answer. We have not found any contracts or financial assistance 
awards for Mr. Abbey; his business partner; Robcyn, LLC; or Abbey, 
Stubbs and Ford, LLC.

    Question 2. What has your office and the Office of Suspension and 
Debarment done to ensure Mr. Abbey will no longer be able to do 
business with either DOI or its subsequent agencies?

    Answer. The Administrative Remedies Division of the Office of 
Inspector General reviews business entities that lack business 
integrity or have a history of poor performance of contractors, 
participants, or financial assistance recipients and makes 
recommendations to the U.S. Department of the Interior's (DOI) 
Suspending and Debarring Official for administrative actions. Our 
Administrative Remedies Division is currently reviewing the information 
available regarding Mr. Abbey, his business partner, and their firm to 
make an appropriate recommendation about suspension and debarment.

    Question 3. Your investigation also concluded that a realty 
specialist in the Nevada State Office provided non-public information 
to Mr. Ford during the presale process. According to the DOI Table of 
Penalties, each of the two regulations violated [5 CFR 2635.703 (2015) 
and 5 CFR 2635.101(b)(8) (2015)] carries potential penalties ranging 
from reprimand to removal. During the hearing, you mentioned that you 
``[had] not received any final information [. . .]'' regarding actions 
DOI has taken to hold the specialist accountable.
    Please provide the committee an update on whether or not DOI has 
made progress on this issue.

    Answer. On July 27, 2016, BLM requested an additional 90 days to 
prepare their response to our report. We only granted a 30-day 
extension, however, and we expect a response from Deputy Director Dan 
Fowler, BLM Office of Law Enforcement and Security, on or before 
September 4, 2016.

    Question 4. During the hearing, you received questions regarding a 
DOI report analyzing incidents of scientific integrity, namely data 
manipulation, at the USGS Energy Geochemistry Laboratory in Lakewood, 
Colorado.
    When asked who the specific agencies and organizations 
(universities, private companies, etc.) were contracting with the lab 
or requesting studies from them, you stated ``I know that USGS itself 
used the lab; I could not tell you, sitting here today, what other 
agencies used this lab. We may or may not have that information. If we 
have it, I would be glad to give it to you.''
    Please provide the committee a list of agencies and outside 
organizations that either contracted with the USGS Geochemistry 
Laboratory in Lakewood or requested studies from them.
    Answer.

    Customers who submitted samples to the lab:

  1.  USGS Scientists/Researchers stationed at the USGS Eastern Energy 
            Resources Science Center in Reston, VA

  2.  USGS Scientists/Researchers stationed at the USGS Central Energy 
            Resources Science Center in Lakewood, CO

  3.  Scientist at Southern Illinois University

  4.  Scientist at State Geological Survey office in Pennsylvania

  5.  Scientist at State Geological Survey office in Wyoming

  6.  Scientist at the National Geospatial-Intelligence Agency

    Customers and collaborators external to USGS:

   1.   Southern Illinois University

   2.   State Geological Survey office in Pennsylvania

   3.   State Geological Survey office in Wyoming

   4.   National Geospatial-Intelligence Agency

   5.   S.S. Papadopulos & Associates--Bethesda, MD

   6.   Civil & Environmental Engineering, Stanford University--
            Stanford, CA

   7.   Department of Environmental Science, Xi'an Jiaotong--Liverpool 
            University, Jangsu Province, People's Republic of China

   8.   Center for Geomicrobiology, Aarhus University--Aarhus, Denmark

   9.   Afghan Geological Survey, sponsored by U.S. Agency for 
            International Development

  10.   United Nations Environment Programme

  11.   ESKOM (a South African electric power generation/distribution 
            utility company)

  12.   Advanced Emissions Solutions, Inc.

  13.   IEA Clean Coal Centre

  14.   University of Texas at Dallas--Richardson, TX

  15.   Craton Resources (Pty) Ltd.--Lobatse, Botswana

  16.   Department of Geological Survey, Economic Geology Division--
            Lobatse, Botswana

  17.   Universidade Federal do Rio Grande do Sul--Porto Alegre, Brazil

  18.   Kiwira Coal Mines--Mbeya, Tanzania

  19.   University of Zambia--Lusaka, Zambia

  20.   Minufiya University--Sadat City, Egypt

  21.   Ministry of Energy and Minerals--Dodoma, Tanzania

  22.   University of Botswana--Gaborone, Botswana

  23.   Afghan Geological Survey

  24.   Colorado School of Mines--Golden, CO

  25.   Genesis Gas & Oil LLC--Kansas City, MO

  26.   Hess Corp.

  27.   Denbury Resources

    Question 5. Please provide information about the process by which 
OIG worked with the Department of Justice in the Abbey, Barton, and 
Grand Canyon investigations.

    Answer. The U.S. Attorney's Office (USAO) for the District of 
Nevada requested that the FBI investigate the circumstances surrounding 
the Henderson, NV land deal. We later joined that investigation after 
then-Secretary Ken Salazar asked us to investigate as well. Once we 
joined with the FBI, we coordinated regularly with the USAO and 
provided frequent updates on the status of the investigation. The USAO 
worked closely with our office and issued grand jury subpoenas in 
support of the investigation, but it ultimately declined to prosecute.
    OIG policy is to coordinate with a USAO within approximately 60 
days of initiating a criminal investigation, which we did in both the 
Grand Canyon and Barton investigations. In most cases, the USAO does 
not accept a case that early in the investigation. We simply want to 
ensure that the appropriate USAO(s) is/are aware of our investigation 
and willing to assist should the need arise for grand jury subpoenas or 
warrants.
    In the initial stages of our investigative work in the Barton case, 
we referred our findings to the USAO for the Eastern District of 
Virginia, which declined to prosecute. We subsequently referred our 
findings to the USAO for the District of Idaho, which also declined. 
After learning of our investigation, the Public Integrity Section of 
the Department of Justice asked to review our report. We are currently 
working with them on this case and a related investigation.
    After completing our investigative work in the Grand Canyon case, 
we referred our findings to the USAO for the District of Arizona, which 
declined to prosecute.

    Question 6. What types of subpoenas were used in those 
investigations?

    Answer. We used grand jury subpoenas in the Henderson land sale 
investigation. In the Barton investigation, we issued an IG subpoena to 
the Western Association of Fish and Wildlife Agencies for email 
correspondence. We did not issue any subpoenas in the Grand Canyon 
investigation.

    Question 7. Please provide insight you may have into why DOJ 
declined to prosecute those referrals.

    Answer. The Department of Justice provides guidelines to its 
Federal prosecutors in its U.S. Attorneys Manual, 9-27.220-27.260, 
available at https://www.justice.gov/usam/usam-9-27000-principles-
federal-prosecution. This manual instructs prosecutors that, ``no 
prosecution should be initiated against any person unless the 
government believes that the person probably will be found guilty by an 
unbiased trier of fact'' (9-27.220). The manual also states that a 
prosecution should be declined if one of the following factors is 
present: ``(1) No substantial Federal interest would be served by 
prosecution; (2) The person is subject to effective prosecution in 
another jurisdiction; or (3) There exists an adequate non-criminal 
alternative to prosecution'' (Id.). Section 9-27.230 provides a list of 
factors (that it deems not ``all-inclusive'') that a prosecutor should 
use in determining whether there is a substantial Federal interest 
served by a prosecution. Although these guidelines apply to all DOJ 
prosecutors, individual U.S. Attorneys and DOJ Criminal Division 
offices vary widely on the types of cases they accept for prosecution.
    With respect to the three OIG investigations you referenced, the 
Barton matter is still under review by DOJ. In the Abbey matter, it is 
our understanding that it was declined because the U.S. Attorney's 
Office concluded that the evidence was insufficient to sustain its 
burden of proof at trial. In the Grand Canyon matter, we discussed 
three individual subjects with the U.S. Attorney's Office and were 
advised that prosecution was declined due to insufficiency of evidence.
    In some situations, obtaining a declination allows us to complete 
our investigations. Pursuant to our Office of Investigations manual and 
consistent with DOJ guidance, when we conduct a non-custodial interview 
of a current Department employee about matters that could result in 
criminal prosecution, our investigators are required to give one of two 
types of legal warnings. The first is the Garrity warning (named for a 
Supreme Court decision), which advises the employee that the interview 
is voluntary and that the employee will not be disciplined for refusing 
to answer questions. As part of this warning, the employee is 
specifically advised that he or she does not have to answer questions.
    After we receive a declination from a Federal prosecutor, our 
investigators can provide a Kalkines warning (named for a Federal court 
case) to the employee if he or she previously declined to answer 
interview questions. This warning compels the employee to answer 
questions and advises that failure to do so can result in disciplinary 
action. In effect, this legal warning provides the employee immunity 
from criminal prosecution through use of the information provided 
during the interview. Because immunity from prosecution can only be 
conferred by DOJ, it is only given after the appropriate U.S. 
Attorney's Office or DOJ component has declined prosecution.

                                 ______
                                 

    Mr. Gohmert. Thank you very much, Ms. Kendall. We 
appreciate your testimony.
    At this time the Chair now recognizes Mr. Guertin for 5 
minutes.

  STATEMENT OF STEVE GUERTIN, DEPUTY DIRECTOR OF POLICY, U.S. 
   FISH AND WILDLIFE SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Guertin. Good morning, Mr. Chairman and members of the 
subcommittee. Thank you for the opportunity to appear before 
you today on behalf of U.S. Fish and Wildlife Service.
    I am Steve Guertin, Deputy Director. My remarks will focus 
on a recent report of the Office of the Inspector General at 
the Department of the Interior on the activities of former 
employee, Stephen M. Barton.
    First, I would like to emphasize that the Service greatly 
values the work of the OIG. OIG investigations and reports help 
educate and remind all Department of the Interior employees of 
the rules governing our work. The OIG's work helps to maintain 
the professional integrity and ethical foundation that 
underpins public service, and the OIG aids our continuous 
efforts to improve management operations.
    Speaking for myself and everyone I talked with at the U.S. 
Fish and Wildlife Service about the Barton report, we were all 
outraged and concerned about the actions undertaken by Mr. 
Barton. Mr. Barton was Chief for Administration and Information 
Management in the all-important Wildlife and Sport Fish 
Restoration, or WSFR Program.
    His Federal career began in September 2007 and ended last 
month. During part of that time, he simultaneously served as 
treasurer for the Western Association of Fish and Wildlife 
Agencies, WAFWA. His position at WAFWA ended in early 2014.
    The findings of the OIG report are deeply troubling to all 
of us. The evidence suggests that Mr. Barton systematically and 
intentionally lied on his financial disclosure reports and lied 
on his ethics forms. Barton deceived, misled, and lied to his 
supervisor. He failed to disclose income he had received from 
WAFWA while he was also working as a Federal employee.
    He concealed the extent of his involvement with WAFWA. He 
violated a 2010 request for ethics approval to engage in 
outside work on which he had certified that he received no 
compensation from WAFWA, and that his work from WAFWA would be 
limited to less than 10 hours a week.
    In addition, the OIG report provides evidence that Barton 
received nearly $100,000 in travel reimbursements over a period 
of 5 years for questionable travel. We believe he carefully and 
deliberately manipulated our systems and our personnel to 
engineer this travel for personal reasons. He concealed these 
actions.
    Upon initial review of the OIG report, the Service acted 
quickly to address problems that were identified in the report. 
We immediately moved Barton out of his position and curtailed 
his access to all travel and financial systems. The Service 
Director asked Barton's supervisor to step aside and move to a 
new position outside of the program he previously led. We 
detailed our Chief Financial Officer to act as the Assistant 
Director for WSFR to ensure objective review, control, and 
management of the situation.
    Mr. Barton is no longer employed with the U.S. Fish and 
Wildlife Service. We have also served Mr. Barton with a 
collection notice to recoup the nearly $100,000 of travel funds 
he manipulated for personal benefit.
    We have a strong system of internal controls designed to 
effectively mitigate risk and prevent these types of issues 
from occurring, but no system is perfect. Unfortunately, this 
is a situation where a senior employee lied to officials, 
intentionally subverted policies and procedures, and exploited 
the trust of his supervisor.
    In addition to the quick and decisive actions we took to 
address Barton's misconduct, the Service has also undertaken a 
comprehensive review to ensure that our internal controls are 
sufficient to detect and prevent similar occurrences from 
taking place in the future.
    Like my colleagues in the rest of the Fish and Wildlife 
Service family, we are all outraged by his behavior. We believe 
the vast majority of the Service's 9,000 employees are 
dedicated, hard-working, ethical, have great professional 
integrity, and take the mission of the Service and their 
individual responsibilities very seriously. Situations like 
these with Barton threaten to reflect poorly on all Service 
employees.
    That is one reason why, when we became aware of this 
unethical behavior, we took immediate and strong action. Such 
misconduct is unacceptable and will not be tolerated in the 
U.S. Fish and Wildlife Service.
    We appreciate the OIG's thorough work on this 
investigation, and we appreciate the subcommittee holding this 
hearing to examine this issue.

    Thank you, and we are happy to answer any questions that 
you may have.

    [The prepared statement of Mr. Guertin follows:]
Prepared Statement of Stephen Guertin, Deputy Director for Policy, U.S. 
       Fish and Wildlife Service, U.S. Department of the Interior
    Chairman Gohmert, Ranking Member Dingell, and members of the 
subcommittee, thank you for the opportunity to appear before you today 
to testify on the Inspector General's report on the actions of a former 
employee of the U.S. Fish and Wildlife Service (Service). My name is 
Stephen Guertin. I am the Deputy Director for Policy for the Service.
    The Service recognizes and greatly values the important work that 
the Office of the Inspector General (OIG) performs to ensure that all 
individuals throughout the Department of the Interior are aware of, and 
adhering to, the laws, rules and regulations governing the work of 
Federal employees. The OIG's work helps maintain the professional 
integrity and ethical foundation that underpins our public service. The 
OIG provides valuable assistance to our bureau as we continuously work 
on improving management operations.
    The OIG Report of Investigation titled: WAFWA Employment of USFWS 
Chief (Case No. OI-VA-15-0379-I) (June 7, 2016) concerns former Service 
employee Stephen M. Barton, who was Chief for Administration and 
Information Management in the Wildlife and Sport Fish Restoration 
(WSFR) program. The Service took prompt and appropriate action in 
response to this report and Mr. Barton is no longer employed with the 
Service. According to the OIG report, during part of that time, Mr. 
Barton also served as treasurer for the Western Association of Fish and 
Wildlife Agencies (WAFWA). His position at WAFWA spanned sometime in 
2004 through early 2014.

    The findings outlined in the OIG report are deeply troubling, and 
the Service took immediate action to address the specific situation and 
is working to ensure it will not be replicated in the future. The 
evidence presented in the OIG report suggests that Mr. Barton 
systematically and intentionally lied on his financial disclosure 
reports and ethics forms; that he deceived his supervisor; that he 
failed to disclose income he received from WAFWA while he was also 
working as a Federal employee; and that he concealed the extent of his 
involvement with WAFWA. His nondisclosure was highlighted by his 
submission of a signed 2010 ``Request for Ethics Approval to Engage in 
Outside Work'' form, on which he certified that he received no salary 
or compensation from WAFWA and that his work for WAFWA would be limited 
to approximately 10 hours per week. In addition, the OIG report 
provides evidence that Mr. Barton received nearly $100,000 in travel 
reimbursements over a period of 5 years for questionable travel. It 
appears that he manipulated the Service's systems and personnel to 
engineer this travel for personal reasons.
    Given the gravity of the issues raised in the OIG report, the 
Service acted quickly to appropriately address problems identified in 
the report. Upon receipt of the OIG report, Mr. Barton was immediately 
moved out of his position and barred access to all travel and financial 
systems. The Service Director asked Mr. Barton's supervisor to step 
aside and move to a new position and the Service's Chief Financial 
Officer was asked to step in as the Acting Assistant Director for WSFR. 
As noted in the OIG's report, the U.S. Attorney's Offices for the 
Eastern District of Virginia and the District of Idaho declined the 
case for prosecution.
    At present, the Service is undertaking a separate, comprehensive 
review to ensure that internal controls related to Mr. Barton's 
actions--controls that may apply to other Service employees--are 
sufficient to detect and avoid similar occurrences from taking place in 
the future. The Service's corrective actions will include increased 
oversight related to outside employment, travel management, use of 
government property, and time and attendance. The Service has issued a 
reminder to qualifying employees that all external income needs to be 
reported on the annual financial disclosure form, and we are adding an 
additional level of review for this information and developing a 
verification process. In addition, the Service is issuing guidance to 
employees regarding what they can and cannot do when they have 
relationships with outside organizations and what may create a conflict 
of interest. We will be issuing a reminder to employees regarding 
prohibitions of the use of Federal property or information systems to 
conduct outside business. The Service is developing additional 
processes for oversight of travel, including a certification and audit 
process.
    We are also using this incident as an opportunity to underscore 
training and ethical responsibilities required by all Service 
employees.
    The vast majority of the Service's over 9,000 employees are 
dedicated, hard-working, and ethical; have great professional 
integrity; and take the mission of the Service and their individual 
responsibilities very seriously. When we become aware of unethical 
behavior like that identified in this report, we take appropriate and 
immediate action.
    The Service appreciates the OIG's thorough work on this 
investigation. We also appreciate the subcommittee holding this hearing 
to examine this issue. Thank you and I am happy to answer any questions 
you might have.

                                 ______
                                 

 Questions Submitted for the Record by Rep. Gohmert to Steve Guertin, 
       Deputy Director of Policy, U.S. Fish and Wildlife Service
    Question 1. Please provide information about the specific amount 
Mr. Barton would have been paid had he been stationed in Boise, and the 
amount he was paid in Washington, DC.

    Answer. Mr. Barton's former position as Chief of the Division of 
Administration and Information Management in the Wildlife and Sport 
Fish Restoration program is located in the U.S. Fish and Wildlife 
Service's headquarters office. During Mr. Barton's tenure in that 
position he maintained a residence in Virginia, as well as a residence 
in Boise, Idaho where his family resided.
    In 2015, the salary for a GS-15, Step 10 with locality pay included 
for the Washington, DC-metropolitan area was $158,700. During the same 
year, a GS-15, Step 10 employee stationed in Boise, Idaho earned a 
salary of $150,830. This is a difference of $7,870. The salary 
differential in previous years was similar.

    Question 2. Please provide a detailed description of the approval 
process for Mr. Barton's travel, including information about which 
expenses had to be approved, how often it had to be approved, and which 
individuals were responsible for approving and processing his travel.

    Answer. Mr. Barton utilized the Service's standard process for 
approving his travel, which is as follows.
    When traveling, an employee requests a management assistant to 
prepare his or her travel authorization documents. The employee 
provides that staff person with the information related to travel 
locations, airlines, and times of departure. At times, an employee 
directly enters travel information into the travel system (Concur) used 
by the Department of the Interior. In other instances, the employee 
requests a management assistant to enter the information. Through 
Concur, the employee or the management assistant selects flights and 
inputs any other associated costs with the trip (e.g. rental car, per 
diem, lodging, taxi, etc.).
    Once a travel authorization is complete, the employee and the 
management assistant electronically approve it. It is then routed to 
the employee's supervisor, or the supervisor's back-up (an acting GS-15 
supervisor in the case of Mr. Barton), for electronic review and 
approval. Once the authorization is approved, the airfare, lodging, and 
rental car are booked.
    Upon returning from travel, an employee either enters the actual 
costs into a travel voucher or provides all the receipts from the trip 
to a management assistant to enter into the system. The system 
automatically identifies which per diem amounts the traveler is 
eligible for (based primarily on location). The management assistant 
adjusts this information in the voucher if needed.
    Once a trip voucher is complete and all supporting receipts are 
uploaded into the system, the voucher is signed by the management 
assistant. Then the employee reviews the voucher and if deemed 
appropriate, electronically signs it. Once signed by the employee, the 
program's Administrative Officer reviews for accounting accuracy and 
appropriateness. If the Administrative Officer notes mistakes, the 
voucher is sent back to the employee and/or the management assistant 
for correction. Once the mistakes are corrected, the Administrative 
Officer approves the voucher electronically and forwards it to the 
final approver, the employee's supervisor or the supervisor's back-up.
    The Service has a strong system of internal controls designed to 
effectively mitigate risk and prevent these types of issues from 
occurring. In the specific case of Mr. Barton, he manipulated the 
Service's procedures, protocol, and personnel to engineer his travel 
for personal reasons and exploited the trust of his supervisor.

    Question 3. Please provide the amount of per diem received by Mr. 
Barton while he was in Idaho between 2011 and 2015.

    Answer. Mr. Barton received $6,163.93 for per diem while he was in 
Idaho during the period between 2011-2015.

                                 ______
                                 

    Mr. Gohmert. Thank you, Mr. Guertin. I appreciate your 
testimony and appreciate your forthrightness.
    At this time, I will recognize myself for 5 minutes for 
questions.
    Ms. Kendall, you were very helpful in your testimony in our 
last hearing. You seemed very forthright, and I was curious; 
after your testimony here, was there anybody at the Department 
of the Interior that made any comment at all to you about your 
written or oral testimony here?
    Ms. Kendall. We met with the Chief of Staff, the Deputy 
Secretary, and a member from the Solicitor's Office to talk 
about how the Office of Inspector General might improve on what 
I referred to in my testimony, which is identify patterns and 
repeat offenses of retaliation and intimidation, people who are 
repeat offenders in terms of misconduct, and bring that to the 
attention of, essentially, the Secretary's Office.
    What we have done in the past is usually work at the bureau 
level, work with the bureau directors, or sometimes even lower 
than that.
    Mr. Gohmert. I was just curious if anybody commented at all 
to you about your testimony in the last hearing we had here.
    Ms. Kendall. Not really, sir, no.
    Mr. Gohmert. Does the Department of Justice work closely 
with you and the Inspector General's Office on most of your 
investigations?
    Ms. Kendall. I would not say most of them. The ones where 
we actually do identify potential criminal violations early, we 
might engage the Department of Justice early. Many of the cases 
may have criminal implications, and we will not bring them 
until we have really come to the end of the case.
    Mr. Gohmert. And it only makes sense that sometimes you 
will not find out criminal implications until you get deeper 
into the evidence that is there; correct?
    Ms. Kendall. Exactly.
    Mr. Gohmert. When the Department of Justice does get 
involved in OIG investigations, does that slow the progress of 
the investigation?
    Ms. Kendall. It can slow the progress, yes, sir.
    Mr. Gohmert. Does it limit your ability at OIG to use 
subpoenas?
    Ms. Kendall. No, sir, it does not.
    Mr. Gohmert. It does not limit your ability to gather 
evidence that you can then submit to the Justice Department at 
all?
    Ms. Kendall. When we work with U.S. Attorneys, we actually 
have an additional authority usually through the grand jury 
system. We maintain our Inspector General subpoena authority 
regardless; but, when a U.S. Attorney is involved, they usually 
decide whether to use a grand jury subpoena or an IG subpoena.
    Mr. Gohmert. Is it unusual for the Department of Justice, 
in cases in which they are investigating with you, where you 
have identified early on that there appears to be potential 
criminal conduct--is it unusual for them to decline to 
prosecute the case?
    Ms. Kendall. I would not say it is unusual.
    Mr. Gohmert. Do you have any kind of feel for approximately 
how often DOJ declines to prosecute cases that you have 
submitted to them?
    Ms. Kendall. I don't have a percentage or even a raw 
number. I could get that for you, sir.
    In the cases where we engage with the U.S. Attorney's 
Office early, we usually have a sense of how things are going. 
We are usually hopeful that there will be a prosecution.
    Mr. Gohmert. If you could get that number for us, that 
would be very helpful.
    Ms. Kendall. We will do that.
    Mr. Gohmert. Did the DOJ participate in the investigation 
of Bob Abbey in the Henderson land deal?
    Ms. Kendall. Yes, sir, they did.
    Mr. Gohmert. Did you find evidence you believed indicated 
criminal violations in that Abbey land deal?
    Ms. Kendall. Yes, sir.
    Mr. Gohmert. Apparently you referred that case to two 
different U.S. Attorney's Offices; correct?
    Ms. Kendall. We may have. My recollection on that one is 
that we worked with one U.S. Attorney's Office. We may have had 
a couple AUSAs working on it, but I may be mistaken there.
    Mr. Gohmert. Did you believe there was sufficient evidence 
to go forward with the prosecution in that case?
    Ms. Kendall. That is a difficult question to answer. We 
believe that there was enough evidence to present it to the 
U.S. Attorney to consider it for prosecution. I cannot speak 
for what the Department of Justice considers.
    Mr. Gohmert. And I would not ask you to speak for them. It 
would be hard enough for them to explain themselves.
    Ms. Kendall. Yes.
    Mr. Gohmert. My time has expired, and I have to go testify 
before a committee myself now. So, at this time, Mr. LaHood 
will be taking over as Chairman of the Committee. Hopefully, I 
will be able to finish and get back.
    At this time, I yield to Mr. Hice for 5 minutes.
    Dr. Hice. Thank you very much, Mr. Chairman. I appreciate 
you calling this hearing.
    This is now actually the third hearing on this issue that I 
have participated in, and after the two previous hearings, 
quite frankly, I have been shocked at the culture of corruption 
and misconduct that has been allowed to persist at the National 
Park Service.
    In fact, last Wednesday, Director Jarvis was at the 
Oversight and Government Reform Committee to answer some 
questions pertaining to allegations of sexual harassment, 
unethical behavior, misconduct, and on and on and on; and, 
unfortunately, for the members of that committee and for the 
citizens of the United States of America, Director Jarvis was 
not able to answer the questions, not even the simplest 
questions.
    And, Mr. Chairman, that is why this past Thursday, I 
actually sent a letter to President Obama, where I asked him to 
have Director Jarvis resign from his position, and I fully 
stand by that letter today.
    In fact, I would ask unanimous consent to include a copy of 
the letter in the record.
    Mr. LaHood [presiding]. Without objection.

    [The information follows:]

                     Congress of the United States,
                                 House of Representatives, 
                                             Washington, DC

                                                      June 16, 2016

Hon. Barack Obama, President of the United States,
The White House
1600 Pennsylvania Ave NW
Washington, DC 20500.

    Dear Mr. President:

    As a member of the House Oversight and Government Reform Committee 
and House Natural Resources Committee, I am deeply troubled by the 
pattern of misconduct and unethical behavior by employees of the 
National Park Service, and specifically, Director Jonathan Jarvis. Over 
the past month, I have had the opportunity now to participate in two 
separate hearings where the problems at this agency have become more 
publicly known.
    Unfortunately, this pattern of misconduct starts at the very top of 
the National Park Service with Director Jarvis. Last year, the 
Department of Interior's Office of Inspector General (OIG) began an 
investigation associated with a book deal on the National Park System 
that Director Jarvis negotiated without consulting the Department's 
Ethics Office. To make matters worse, the OIG noted in its report on 
Director Jarvis that he chose to avoid consultation with the Ethics 
Office because it would essentially delay his book from being 
published.
    Furthermore, this misconduct does not stop with Director Jarvis. In 
the hearings held in these two House Committees, we learned of two 
additional investigations conducted by the OIG on allegations of sexual 
harassment at the Grand Canyon National Park's River District and Cape 
Canaveral National Seashore. In both locations, the OIG found that 
individuals chose not to come forward out of a fear of professional 
retaliation or that complaints were not properly sent up the chain of 
command.
    Regrettably, in these cases--and others--the proper form of 
discipline was not pursued. In the case of Director Jarvis' book deal, 
the only punishment he faced was that he was stripped of his authority 
to implement the Park Service's Ethics Program and is required to 
attend monthly ethics training courses for the remainder of his tenure. 
Others have either been transferred out of their positions or have been 
allowed to retire without facing the punishment that fits the 
misconduct.
    These are just some of the examples of the ethical failures and 
misconduct committed by employees of the National Park Service and the 
lack of discipline they have faced. Ultimately, Director Jarvis must be 
held accountable for these actions. Therefore Mr. President, I believe 
that the time has come for you to call on Director Jarvis to tender his 
resignation as the Director of the National Park Service. Should he 
choose not to resign, I believe that you must relieve him of his duties 
effective immediately.

            Sincerely,

                                                 Jody Hice,
                                                Member of Congress.

cc: The Hon. Sally Jewell, Secretary, Department of the Interior

                                 ______
                                 

    Dr. Hice. Thank you.
    I also have had a little bit of time to review Director 
Jarvis' book, which, incredibly to me, is entitled, ``A 
Guidebook to American Values and our National Parks.'' It is 
just amazing to me, this whole thing.
    Based on the OIG report on Director Jarvis, he obviously 
lied to Secretary Jewell. The report mentions that he 
deliberately avoided consulting the Ethics Office before 
writing this book.
    It is more than ironic, beyond ironic, to think that 
Director Jarvis has anything to offer us in terms of a guide on 
American values, when he, himself, is evidently so steeped in 
corruption.
    But with all of that in mind, Ms. Kendall, I want to thank 
you again for appearing before us. I would like to ask you a 
couple of questions.
    Following the subcommittee's hearing on ethics last month, 
Director Jarvis decided to send an email to employees 
apologizing for his failure to have this book approved by 
proper officials. Are you aware of that email?
    Ms. Kendall. Yes, sir, I am.
    Dr. Hice. Your report on Director Jarvis lays out evidence 
that he misled your office in the course of the investigation. 
Has Director Jarvis apologized to you?
    Ms. Kendall. No, sir.
    Dr. Hice. Referring back to the email that he sent to the 
National Park Service employees, did he apologize for lying to 
the Secretary of the Interior?
    Ms. Kendall. I don't recall that was in his email.
    Dr. Hice. Do you recall whether or not he apologized for 
conspiring to create a fraudulent narrative basically where he 
claims that Eastern National asked him to write a book when, in 
fact, it was his idea to write the book, or was he simply 
apologizing in the email for his failure to submit the book for 
review?
    Ms. Kendall. I would say his apology was much more the 
latter. I thought it was terribly qualified and not as sincere 
as I would have liked to have seen.
    Dr. Hice. Is it possible, Ms. Kendall, that Director Jarvis 
still does not understand what he did wrong?
    I mean, if he is not able to apologize to your office for 
withholding relevant information during the investigation, if 
he is not willing or able to apologize for lying to the 
Secretary or acknowledging the fact of conspiring about the 
true origin of this book, does he not get it, or is he trying 
to avoid the real issue right now?
    Ms. Kendall. I would say it is the latter.
    Dr. Hice. And what makes you say that?
    Ms. Kendall. I would look at his letter to his employees. I 
think it suggested that he was sorry that it happened, but when 
he spoke to our investigators, as you know, sir, he said he 
would do it again if it came to that.
    Dr. Hice. Thank you very much. My time has expired, and I 
appreciate your testimony here today, Ms. Kendall.
    I yield back.
    Mr. LaHood. Thank you.
    At this time we will yield 5 minutes to the Full Committee 
Chairman, Mr. Bishop.
    Mr. Bishop. Thank you.
    I apologize for coming in late. I will make up for it by 
leaving right after I am done.
    Ms. Kendall, I appreciate you being here. You publicly, I 
believe, released a report yesterday.
    Ms. Kendall. Yes, sir.
    Mr. Bishop. The report details an incidence involving 
improper hiring and discrimination against veterans in the 
Office of the Secretary. Am I right in that assumption?
    Ms. Kendall. Yes, sir.
    Mr. Bishop. The report discussed how an individual at the 
office repeatedly violated hiring practices or procedures to 
secure a job for a relative. Is that also correct?
    Ms. Kendall. It was a relative of her ex-husband, yes, sir.
    Mr. Bishop. I guess that is enough of a nexus. OK.
    How many times was the job posting rewritten or canceled to 
benefit this particular individual?
    Ms. Kendall. I don't remember precisely. It was more than 
once.
    Mr. Bishop. OK. Three, four, five, ten?
    Ms. Thompson. I would say two or three, perhaps.
    Mr. Bishop. I understand from the report that the veterans 
who are more highly qualified and have veteran preference 
status were asked to withdraw their application at the 
direction of this individual.
    Ms. Kendall. That is my understanding.
    Mr. Bishop. I also understand that this individual 
instructed her subordinates to find reasons to disqualify those 
veterans who could not be convinced to withdraw their 
application, because she did not want a potentially disabled 
veteran on the staff. Am I reading that correctly from your 
report?
    Ms. Kendall. I believe so, sir, yes.
    Mr. Bishop. I also understand that discrimination against 
veterans and the continual rewriting of job postings did 
ultimately result in the employment of her former nephew, by 
marriage. Is that individual still employed at the DOI?
    Ms. Kendall. I believe so.
    Mr. Bishop. When did this individual retire from the 
Interior Department, the one who hired?
    Ms. Kendall. I believe she retired around the beginning of 
this calendar year.
    Mr. Bishop. And, have there been any disciplinary actions 
taken against her, for what I say is an egregious hiring 
practice?
    Ms. Kendall. Once she is retired, the Department is very 
limited in what they can do.
    Mr. Bishop. Was it forced retirement?
    Ms. Kendall. Not that I know of, sir.
    Mr. Bishop. All right. How did you know about this? How did 
the investigation on this particular issue begin?
    Ms. Kendall. I would have to----
    Mr. Bishop. Did someone inform you or is this kind of like 
a routine investigation that you do?
    Ms. Kendall. No, I believe we had a complaint come in 
regarding this.
    Mr. Bishop. And are there other cases in the pipeline of 
which you know?
    Ms. Kendall. We have many, many cases in the pipeline. I 
don't know that we have any with this kind of egregious hiring 
issues.
    Mr. Bishop. Well, I admit it is egregious, and I thought we 
were past that.
    I appreciate the report. I appreciate your coming here and 
testifying, and I appreciate your bringing this to light, not 
only to the public in your report, but also to the committee. 
So, thank you very much.
    Ms. Kendall. Thank you.
    Mr. Bishop. I will yield back.
    Mr. LaHood. Thank you.
    At this time we will yield 5 minutes to the gentleman from 
Arkansas, Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman.
    I also would like to extend my thanks to the witnesses for 
being here this morning.
    Ms. Kendall, as I listen to the testimony and the 
questions, it reminds me how important it is to have 
transparency in our government and how important your job is as 
an Inspector General in shining light on some of these issues. 
It appears that you have quite a bit of job security with the 
way some of these agencies have been operating.
    My specific questions have to do with the OIG's 
investigation of the Henderson, Nevada land sale. That is the 
OIG's investigation into Bob Abbey, the former Director of the 
Bureau of Land Management.
    Who requested that the OIG investigate Mr. Abbey?
    Ms. Kendall. The former Secretary, Ken Salazar.
    Mr. Westerman. OK. And also I believe this committee.
    Ms. Kendall. Yes, sir, we got a letter from then-Chairman 
Doc Hastings.
    Mr. Westerman. And what did the OIG investigation 
ultimately find?
    Ms. Kendall. What we found is that there was unusual access 
to the BLM by Bob Abbey's former partner, who was involved in 
the land sale, and that Abbey had personal substantial 
involvement in the approving of that land sale, which is a 
violation of the ethics rules.
    Mr. Westerman. What specific actions did Mr. Abbey take?
    Ms. Kendall. Going by recollection, I believe that he met 
specifically with the individual who was trying to accommodate 
the sale, who was his former partner and would be his partner 
again when he retired; and if I remember correctly, he was the 
ultimate person who needed to approve the sale.
    Mr. Westerman. So was he recused from his prior business 
dealings before this time?
    Ms. Kendall. I believe so, yes.
    Mr. Westerman. Did he abide by the ethics pledge he took 
and the recusal agreements he signed?
    Ms. Kendall. I don't believe so.
    Mr. Westerman. OK. Are Mr. Abbey and his business partner, 
Mr. Ford, continuing to do business with BLM? Is that 
appropriate given the allegations your office has 
substantiated?
    Ms. Kendall. In that regard, sir, I believe that my office 
is working with the Department's Office of Suspension and 
Debarment to ensure that they are not able to do business with 
the Department of the Interior or, quite frankly, with other 
departments in the Federal Government.
    Mr. Westerman. But right now they are still doing business?
    Ms. Kendall. I don't know one way or the other, sir.
    Mr. Westerman. OK. So the Abbey investigation also 
concluded that a realty specialist in the Nevada State Office 
provided non-public information to Mr. Ford during the pre-sale 
process. Did she violate any Federal regulations by doing so?
    Ms. Kendall. I believe so, yes.
    Mr. Westerman. Do you recall how many regulations she 
violated?
    Ms. Kendall. Well, I don't know--there are a number of 
them. Certainly she gave preferential treatment, which is 
something that a public service simply should not do; and she 
also provided information that was not readily available to the 
public to an individual.
    Mr. Westerman. Kind of like a government form of insider 
trading maybe?
    Ms. Kendall. Perhaps.
    Mr. Westerman. So, what penalties apply when a Federal 
employee violates those regulations?
    Ms. Kendall. There is usually a range of penalties. In this 
case I don't know specifics, but it can be anything from a 
written reprimand to removal.
    Mr. Westerman. And finally, on this issue, has the 
Department of the Interior taken any action to hold the realty 
specialist accountable?
    Ms. Kendall. We have received information that they intend 
to, but I don't believe we have received any final information 
as to what they have done.
    Mr. Westerman. So, they intend to but they have not--and 
how long ago?
    Ms. Kendall. It has probably been within the last 4 weeks 
that we received that response from the Department, but I can 
get that information to you.
    Mr. Westerman. OK. And, Mr. Chairman, will we have a second 
round of questions?
    Mr. LaHood. Yes.
    Mr. Westerman. I will yield back at this time.
    Mr. LaHood. Thank you.
    At this time I yield 5 minutes to the gentleman from West 
Virginia, Mr. Mooney.
    Mr. Mooney. Thank you, Mr. Chairman.
    Ms. Kendall, I have had a lot of dealings with the 
Department of the Interior in West Virginia. We are dealing 
with coal mining and other issues. I work with them and deal 
with them on a lot of issues. I have a few questions for you.
    In your semi-annual report to Congress from March, you 
mentioned that, of the 29 cases you referred to the Department 
of Justice for prosecution, 17 were declined. Is that correct?
    Ms. Kendall. I believe so, yes, sir.
    Mr. Mooney. So, they would not prosecute 17. And do you 
refer all cases where laws are broken to the Department of 
Justice? I mean, they declined 17. So, are you just referring 
everything, or do you only refer those where the violations and 
weight of evidence would likely result in a conviction?
    Ms. Kendall. We refer cases where we believe we have 
evidence of a criminal violation. We do not make the 
distinction that we have enough for a conviction. That is 
really for the Department of Justice to make that decision.
    Mr. Mooney. OK, this was since March. Do you have any 
updated information about how many have been referred and 
declined since March?
    Ms. Kendall. I don't have that today. We can certainly get 
that to you, sir.
    Mr. Mooney. I would appreciate that.
    Are all the cases of criminal conduct that you refer to the 
Department of Justice about employee wrongdoing or do some of 
them involve non-government employees?
    Ms. Kendall. Some certainly involve non-government 
employees.
    Mr. Mooney. OK. And of the 17 cases that were declined, how 
many were employees of the Department of the Interior where 
they violated the law?
    Ms. Kendall. Again, I would have to get that information to 
you, but I would be glad to do that.
    Mr. Mooney. OK. And there is the statute of limitations. Is 
there a statute of limitations on the crimes that Mr. Barton 
committed?
    Ms. Kendall. I believe so, yes.
    Mr. Mooney. Do you know when that expires?
    Ms. Kendall. There is a general statute of limitations, 
about 5 years for most crimes.
    Mr. Mooney. OK.
    Ms. Kendall. I don't know precisely for this.
    Mr. Mooney. OK. Is there also a statute of limitations for 
the crimes that Bob Abbey committed?
    Ms. Kendall. I believe so.
    Mr. Mooney. When would that time out?
    Ms. Kendall. Probably about the same time.
    Mr. Mooney. How does your typical referral to the 
Department of Justice work? For example, does your staff 
develop relationships with specific U.S. Attorneys?
    Ms. Kendall. We often do that, yes.
    Mr. Mooney. Once the DOJ declines to prosecute a case, do 
you know if they can prosecute at a later date?
    Ms. Kendall. If the statute of limitations has not run out, 
they probably would have the technical authority to do so.
    Mr. Mooney. OK. Then would you be willing to refer cases to 
the Department of Justice again for prosecution if the statute 
of limitations has not lapsed?
    Ms. Kendall. I don't know that we have done that. There may 
have been some cases where we have gotten an initial 
declination; but in discussions with, say, the U.S. Attorney or 
Assistant U.S. Attorney, there is more work that we could do 
where we would represent, but I don't come up with any examples 
of that offhand.
    Mr. Mooney. So, you have not done it. Why? I mean, is there 
any reason you would not do it?
    Ms. Kendall. There are reasons that we go to the U.S. 
Attorney's Office to actually to get a declination. In some 
cases, we know that there is a potential crime, but there are 
problems with the case that it probably would not be 
prosecuted. If we get a declination from a U.S. Attorney's 
Office, we can then compel a government employee to speak to 
us, whereas if the criminal actions were still outstanding, 
they would be able to refuse to speak to our investigating 
agents.
    Mr. Mooney. OK. Thank you.
    My time is almost up. I will go ahead and yield back.
    Mr. LaHood. Thank you.
    I will yield myself 5 minutes at this time.
    I want to thank the witnesses for being here today and for 
your testimony.
    Mr. Guertin, I know in your opening statement you talked 
about the facts and circumstances involving Mr. Barton, which 
are, I think by your own adjectives, very, very troubling.
    And Mr. Barton, as I understand it, his title was Chief of 
Administrative Information and Management; and clearly he found 
a creative way to enrich himself illegally, but I guess the 
part that is really revealing is that he did it out in the 
open.
    As I understand it, Mr. Barton was stationed in Washington, 
DC; is that correct?
    Mr. Guertin. Yes, sir.
    Mr. LaHood. But where was he actually living, Mr. Guertin?
    Mr. Guertin. My understanding is Mr. Barton maintained an 
apartment in the DC Metro area, so he had residency established 
in Virginia. The IG report revealed that he was making frequent 
travel back to Boise, Idaho.
    Mr. LaHood. And he was actually living in Boise. That is my 
understanding; correct?
    Mr. Guertin. It appears he was visiting there quite 
frequently, yes, sir.
    Mr. LaHood. Beyond that, he was being paid Boise locality 
rates. Is that my understanding, or was it DC rates?
    Mr. Guertin. He would have been paid based on where his 
duty station was, which is the DC Metro area, sir.
    Mr. LaHood. And that would have been a higher rate; 
correct?
    Mr. Guertin. Slightly higher than what employees receive in 
Idaho, yes, sir.
    Mr. LaHood. And related to that locality rate, do you know 
how much additional income that deception provided him?
    Mr. Guertin. Probably a couple of thousand dollars a year, 
sir, in locality rate adjustment for a large metro area like DC 
versus a smaller town like Boise, Idaho.
    Mr. LaHood. If I told you that was about $15,000 that he 
received because of the DC locality rates, would you dispute 
that?
    Mr. Guertin. On a yearly basis, that sounds a little high, 
sir, but we can certainly verify for the record the specific 
amount that would have been the difference.
    Mr. LaHood. And, who paid for the travel, Mr. Guertin, for 
Mr. Barton to travel back and forth between Boise and 
Washington, DC?
    Mr. Guertin. He billed the U.S. Fish and Wildlife Service 
for that travel.
    Mr. LaHood. How many flights did Mr. Barton take between 
Boise and Washington, DC, between 2011 and 2015?
    Mr. Guertin. It appears, on the evidence that was provided 
to us by the OIG report, as well as our own forensics deep dive 
into the travel records going back those several years, he made 
a total of at least 50 round trip visits out there, which would 
have meant a total of 100 flights.
    The troubling thing about this former employee is that he 
engineered a lot of his travel to guise it under a need for 
meeting with constituent groups, partners, or others and routed 
himself through Boise. I used to live and work in the West 
myself and know there are regional airports like Boise, Salt 
Lake, and others. It is very easy to route yourself through a 
city like that.
    Mr. LaHood. So, my understanding is that the 100 trips that 
he took during this 3- or 4-year period cost about $96,000 to 
taxpayers. You would not dispute that; correct?
    Mr. Guertin. Just to clarify, sir, it would be a total of 
50 round trips, 100 flights, and he did bill $96,000 and some 
change to the Federal Government, yes, sir.
    Mr. LaHood. Ms. Kendall, did your investigation also find 
that he charged expenses to the Federal Government when he was 
actually at home in Boise?
    Ms. Kendall. Yes, sir, I believe so.
    Mr. LaHood. In fact, he took per diem for weekends in 
Boise.
    Ms. Kendall. That is my understanding.
    Mr. LaHood. And I guess, looking at the facts, Mr. Barton 
was paid additional salary for reportedly living in DC, and 
then financed the deception through this travel and was being 
paid a salary of $155,000 per year. Is that accurate?
    Mr. Guertin. The last year that he was employed by the 
Federal Government, that would have been his annual salary 
level, yes, sir.
    Mr. LaHood. Just for a point of reference, the medium 
household income in Idaho is less than $50,000 a year. Clearly, 
Mr. Barton was making an exorbitant salary or living through 
this deception or arrangement he had.
    Ms. Kendall, there was another element to this, too, where 
he supplemented his income even more beyond what I just went 
through, and that was through his role with the Western 
Association of Fish and Wildlife Agencies from 2004 to 2014. As 
I understand it that is a private organization, and he was the 
treasurer of that organization; is that correct?
    Ms. Kendall. That is my understanding, yes, sir.
    Mr. LaHood. During this entire time, did you or your 
Department question him being the treasurer of that department?
    Ms. Kendall. Certainly my office did not. We did not know 
about it, and I do not believe that we had any indication that 
Fish and Wildlife did.
    Mr. LaHood. I see my time has expired. I look forward to a 
second round of questions.
    At this time I will yield to Mr. Westerman another 5 
minutes.
    Mr. Westerman. Thank you again, Mr. Chairman.
    Ms. Kendall, I want to come back to another investigation. 
This one is based on an audit released dated June 16, and it 
was a USGS laboratory. Your audit looked at scientific 
misconduct and data manipulation at the Energy Geochemistry 
Laboratory's Inorganic Section in Lakewood, Colorado. The 
problems were so severe, in fact, that the USGS has already 
closed the inorganic lab in question permanently; is that 
correct?
    Ms. Kendall. Yes, sir.
    Mr. Westerman. Your report states that there have been two 
periods in which mass spectrometer operators in the lab's 
Inorganic Section have violated established laboratory 
practices without detection for many years. The first began in 
1996 and continued to be undiscovered until 2008. A second 
began in 2008 and continued undiscovered until late 2014.
    So, there have been problems at this lab from 1996 until 
2014, for a couple of decades; is that correct?
    Ms. Kendall. That is my understanding, yes, sir.
    Mr. Westerman. You also state in your audit that a review 
revealed that the full extent of the impacts are not yet known, 
but nevertheless, they will be serious and far ranging.
    I am just astonished with this. According to your report, 
the affected projects represented about $108 million in 
taxpayer funding from Fiscal Year 2008 through 2014; is that 
correct?
    Ms. Kendall. Yes, sir.
    Mr. Westerman. And, is it correct that samples were used to 
generate some of the analytical results that were then 
manipulated, were not retained, and that the analyst kept poor 
records for a substantial portion of his work and consequently 
the work cannot be reproduced?
    Ms. Kendall. That is my understanding, yes.
    Mr. Westerman. So, USGS officials have stated that lab 
conditions, in particular heat, have virtually affected their 
analysis, and that these adverse conditions stretch back to the 
period of 1996 to 2008, during which there were also 
significant problems with the lab work.
    But in 2011, USGS installed the new $175,000 machine in the 
lab. Do you have an explanation why USGS would put a new, 
expensive machine in this lab that had these problems that 
remained uncorrected?
    Ms. Kendall. No, I do not.
    Mr. Westerman. It defies logic.
    During the course of an interview with one of your auditors 
dated November 16, 2015, one former USGS employee alleged that, 
apparently during the first period of problems at this lab, an 
employee of the lab would say, ``Tell me what you want and I 
will get it for you.''
    Although it is not exactly clear from the interview record, 
he would also say, ``What we do is like magic.''
    Given the lab's history and that problems had already been 
identified when this interview was being conducted, such a 
statement seems potentially significant. Your office explained 
that you don't know the context or veracity of this statement, 
and that this issue was not part of the audit so it was not 
pursued; is that correct?
    Ms. Kendall. Yes, sir.
    Mr. Westerman. Do you know the status of the analyst 
involved and his supervisor?
    Ms. Kendall. I understand that the analyst involved, the 
one who was manipulating the mass spectrometer, is no longer 
employed with USGS. I don't know the status of the supervisor.
    Mr. Westerman. So, USGS has advised committee staff that, 
because scientists had already begun to distrust this lab so 
significantly, they began relying upon analysis from other 
labs, limiting the amount of work products that were comprised 
or ruined.
    I guess, maybe, because I come from an engineering and a 
forestry background, a lot of the work that people do that is 
based on scientific research is so important. If the base 
research is flawed, then that affects work that goes out from 
there. We spent $108 million for this research and I am not 
even sure what the scientific research results were used in.
    Do you have any idea what kind of different research papers 
or where this data was used?
    Ms. Kendall. That was precisely the scope of our review. We 
conducted an inspection, which is a very narrow, focused 
review, and our purpose was to identify those documents that 
this scientific data was used in.
    Mr. Westerman. Do you know ultimately who used this and 
what decisions may have been made on this improper data?
    Ms. Kendall. We did not go into the decisions. The actual 
publications and other things that used this data are attached 
to our report in, I think, Appendix B. We itemized the areas 
where that data was used.
    Mr. Westerman. OK. I know I am going over a little bit, but 
it is just astounding that we would spend $108 million on 
manipulated research, and then the far-reaching effects that 
that would have. We know how research multiplies and affects 
different parts of our society and our economy, and we always 
hope that is going to be in a good way, but if you are working 
off of flawed data, it definitely could be in a bad way.
    I yield back, Mr. Chairman.
    Mr. LaHood. Thank you.
    At this time, I yield myself another 5 minutes for the 
second round.
    I am going to pick up on the same line of questioning I had 
regarding Mr. Barton. I did want to clarify; I think I had 
mentioned that the median household income in Boise, Idaho is 
$50,000.
    Getting back to the relationship that Mr. Barton had with 
this association, it turns out that in 2013, he made $109,000 
in that year alone in being paid as the treasurer for this 
agency, along with working for the Federal Government.
    Ms. Kendall, did you find that Mr. Barton went as far as 
double billing for his work for the association, the private 
organization, and the Fish and Wildlife Service?
    Ms. Kendall. We did a comparison of the hours that he 
billed for Fish and Wildlife versus the hours he billed to 
WAFWA. I don't know that we did an analysis as to whether those 
overlapped or were double billed.
    Mr. LaHood. Were you familiar with a conference he attended 
in Hawaii where he did double bill both?
    Ms. Kendall. I am not aware of that.
    Mr. LaHood. If I told you that occurred, would you disagree 
with that?
    Ms. Kendall. I would have no basis to disagree.
    Mr. LaHood. And, Mr. Guertin, was your agency aware of Mr. 
Barton's position as treasurer of WAFWA, the private 
organization?
    Mr. Guertin. Congressman, Mr. Barton came to the Fish and 
Wildlife Service as a retired employee of the Idaho Fish and 
Game Department; and, at that time, he had worked with WAFWA as 
their treasurer.
    When he was hired by the Fish and Wildlife Service, he 
purported to his supervisor that this was a voluntary non-paid 
position, and he likened it to, ``Well, I help them collect the 
till at the end of the services kind of a thing.'' As a Federal 
employee, he was required each year to fill out a detailed 
ethics form stating crystal clear if there were any sources of 
outside income, particularly his role as a grant administrator 
for agencies that we partner with on conservation.
    Each year he failed to comply with this requirement for all 
Federal employees, lied on his ethics forms, and did not 
disclose any of this outside income.
    Mr. LaHood. And what sort of problems could be created by a 
senior official at Fish and Wildlife Service serving as the 
treasurer of a private association that receives Federal 
grants?
    Mr. Guertin. First of all, an appearance of conflict of 
interest. It is inappropriate for Federal employees to be 
involved in that type of role.
    Second and most importantly, Federal employees are required 
to comply with these ethics laws for a reason, and he did not 
comply with them. That was the most unsettling and troubling 
aspect of all. He failed to comply and meet his 
responsibilities as a Federal employee.
    Mr. LaHood. And why did the Fish and Wildlife Service allow 
him to continue working for WAFWA or at least remove him from 
his duties at the Service?
    Mr. Guertin. He continued to purport that this was a part-
time, non-paying type of position. He was confronted with this 
back in 2014, and, at that point, actually resigned from WAFWA 
because he started getting nervous he was going to be caught 
doing this.
    So he was, in fact, confronted and did, in fact, move off 
that position with WAFWA a couple of years ago.
    Mr. LaHood. The part that is really concerning is Mr. 
Barton was not a low-level official at Fish and Wildlife. He 
was a top senior official, top 1 percent in terms of salary, 
not including his six-figure moonlighting, doing all of these 
other things.
    How is it possible that a fraud like this went unnoticed 
for so many years?
    Mr. Guertin. Unfortunately, many of the systems we rely on 
require individual employees to self-report. They fill out 
these ethics forms and they self-report them. We do not have 
the authority to independently contact any of these groups.
    So, all I can say, Congressman, is that the 9,000 employees 
that I work with are honest or ethical and comply with these 
requirements. Mr. Barton did not. He misled and deceived all of 
us, and for that reason we are here before you today.
    Mr. LaHood. Yes, and obviously you believe and have formed 
the opinion that what he did was wrong, unethical, and 
inappropriate; correct?
    Mr. Guertin. Absolutely, yes, sir.
    Mr. LaHood. Have you recommended prosecution of Mr. Barton 
for the activities he engaged in?
    Mr. Guertin. Under the Privacy Act, I am not privy to share 
with you in this public hearing what actions the Fish and 
Wildlife Service did take. We did have the opportunity 
yesterday afternoon to brief committee staff on the specific 
actions we took in private session, and after the committee 
wraps up today, I would be glad to provide to you the same 
information in private session.
    It is just the Privacy Act does not allow me to address 
that in this public hearing, sir.
    Mr. LaHood. Have you formed an opinion on whether he should 
be prosecuted or held accountable?
    Mr. Guertin. We took what actions we could under our 
guidance. We also sent him a bill to collect the $96,000 in 
fraudulent travel claims.
    Mr. LaHood. What if he does not pay that?
    Mr. Guertin. We, under the Antideficiency Act and the 
authorizing legislation that enabled this program to begin 
with, will pursue every avenue at our means to continue to 
bird-dog him and collect those funds back.
    Mr. LaHood. I know I am going over my time here, but how do 
you give taxpayers some level of confidence that what occurred 
here will no longer occur?
    What mechanisms have you put in place, what safeguards?
    I mean, clearly, what was done over this 10-year period did 
not work. So, how do you give confidence to the American people 
that you have changed the procedure?
    Mr. Guertin. We are going back to every automated and self-
reporting system we have in the Fish and Wildlife Service. We 
have some of our best folks working on ensuring that we have 
the proper guidance, protocols, and internal controls.
    We actually have a lot of belief in the current system of 
internal controls. In this case, this unfortunate case, this 
one employee, a clever guy, was able to manipulate both 
personnel and systems to create this appearance that he was on 
authorized travel when, in fact, he was not. We are 
revitalizing all of our systems and personnel processes 
concurrently going forward so that unfortunate incidents can 
never happen again.
    Mr. LaHood. Thank you.
    I am over my time. At this time, I yield an additional 5 
minutes to Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman.
    I regret we do not have more Members here, but at least we 
are getting some of this on the record.
    Ms. Kendall, I would like to go back to the last topic we 
discussed on the USGS laboratory. I have a list here of some of 
the project names, and this is really disturbing when I see 
some of these project names and to know that data was 
manipulated.
    One of them is uranium in the environment. My understanding 
is that a mass spectrometer looks at the different chemical and 
ionic makeups of substances so it can tell you what kind of 
heavy metals are there and what kind of chemicals are in the 
sample. Just looking down this list, geological CO<INF>2</INF> 
sequestration, health effects of energy resources, Alaska rural 
energy, geochemistry of solid fuels, U.S. coal resources and 
reserves assessment, produced waters, and the list goes on and 
on about very important scientific issues.
    And to think that the data may have been manipulated in the 
base level in these mass spectrometer readings is, again, 
really disturbing. I believe there was a project on Everglades' 
toxics. Can you tell me some of the agencies or organizations 
that the lab was contracting with?
    Who was requesting these studies?
    Ms. Kendall. I know that USGS itself used the lab. I could 
not tell you sitting here today what other agencies used this 
lab. We may or may not have that information. If we have it, we 
would be glad to get it to you.
    Mr. Westerman. Yes, I would like to see that.
    And do you know if it was all government agencies? Was it 
universities? Was it private companies?
    Ms. Kendall. I simply don't know, sir.
    Mr. Westerman. Do you know if any research papers had to be 
recalled when it was found out this data had been manipulated?
    Ms. Kendall. I believe some had to be recalled, yes.
    Mr. Westerman. What about dissertations that college 
students worked on?
    Ms. Kendall. I don't know that for a fact, sir. Our goal in 
this review was to identify those areas where the data had an 
impact, and USGS is actually taking steps to make that extra 
determination that you are talking about, that is, 
dissertations, and other kinds of research that may have relied 
on this bad data.
    Mr. Westerman. Do you know if there are any other 
investigations in the other USGS laboratories?
    Ms. Kendall. Not that I am aware of.
    Mr. Westerman. So, you think this may have just been kind 
of a lone wolf that, for two decades, was generating bad data 
that was going into the research?
    Ms. Kendall. It may have been. I do not have information to 
say one way or the other.
    Mr. Westerman. OK. Mr. Chairman, I yield back.
    Mr. LaHood. Thank you.
    At this time I would like to thank our witnesses for being 
here today.
    Obviously there is an overwhelming amount of disturbing 
information the Inspector General has delivered in the last 
several weeks, and I can assure you that the Natural Resources 
Committee and this subcommittee will continue to examine these 
issues.
    Unfortunately, it has become entirely clear that there is 
no ``culture of compliance' at the Department of the Interior. 
That may be a nice slogan, but the action and accountability 
behind it fall terribly short of the responsibility that 
taxpayers deserve.
    These cases touch many sub-agencies of the Interior, 
including the National Park Service, the U.S. Geological 
Survey, the Fish and Wildlife Service, the Bureau of Land 
Management, and even the Office of the Secretariat.
    We had hoped that the Department would work with us to 
provide a witness that could have answered on their behalf, but 
we were left with a solitary witness from the Fish and Wildlife 
Service, and that is disappointing.
    The members of the committee may have some additional 
questions for the witnesses, and we will ask you to respond to 
those in writing. Under Committee Rule 4(h), the hearing record 
will be open for 10 business days for these responses.
    If there is no further business, without objection, the 
committee stands adjourned. Thank you for your testimony.

    [Whereupon, at 11:07 a.m., the subcommittee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

  1.  U.S. Department of the Interior, Office of Inspector 
            General--Investigative Report of Failure to 
            Disclose Employment at the U.S. Fish and Wildlife 
            Service. Posted on June 7, 2016. Submitted by 
            Subcommittee Staff--Majority.

  2.  U.S. Department of the Interior, Office of Inspector 
            General--Investigative Report of BLM Land Sale, 
            Henderson, NV. Posted on May 31, 2016. Submitted by 
            Subcommittee Staff--Majority.

  3.  U.S. Department of the Interior, Office of Inspector 
            General--Scientific Integrity Incident at USGS 
            Energy Geochemistry Laboratory. Posted on June 15, 
            2016. Submitted by Subcommittee Staff--Majority.

  4.  U.S. Department of the Interior, Office of Inspector 
            General--Investigative Report of Alleged Contract 
            Steering by the National Park Service's Denver 
            Service Center. Posted on June 7, 2016. Submitted 
            by Subcommittee Staff--Majority.

  5.  U.S. Department of the Interior, Office of Inspector 
            General--Investigative Report of Misconduct at the 
            Grand Canyon River District. Posted on January 12, 
            2016. Submitted by Subcommittee Staff--Majority.

  6.  U.S. Department of the Interior, Office of Inspector 
            General--Investigative Report of Sexual Misconduct 
            by Chief Ranger at Canaveral National Seashore. 
            Posted on June 13, 2016. Submitted by Subcommittee 
            Staff--Majority.

  7.  Kadzik, Peter J., Assistant Attorney General, U.S. 
            Department of Justice, Office of Legislative 
            Affairs, June 20, 2016 Letter to Chairman Louie 
            Gohmert stating that the Department would not 
            participate in the hearing.

                                 <all>
</pre></body></html>
